("'~
(~t-~                 DEPARTMENTOF
                      DEPARTMENT OFHEALTH
                                    ImAL TH&&ffiJMAN
                                               HUAN SERVICES
                                                     SERVICES                                                Officeof
                                                                                                             Office of Inspector
                                                                                                                        Inspector General
                                                                                                                                  General

<~',.<.-::::l
  -"
 ,~-lltird30:i
                                                                                             Washington,
                                                                                                            Washington, D.C.
                                                                                                                        D.C. 20201
                                                                                                                             20201



                                                                   SEP
                                                                   SEP 11 77 2008

                                                                             2008


           TO:                     Daniel C.
                                   Daniel C. Schneider
                                   Acting
                                   Acting Assistant Secretary for Children
                                                    Secretar for  Children and
                                                                           and Families
                                                                               Families




           FROM:
           FROM:                       Levinson~
                                   Daniel
                                   Daniel R.      ~. ~
                                          R. Levinson~ ~. ~
                                   Inspector General


           SUBJECT:                Review
                                   Review of
                    Temporary Assistance
                                                of Improper Temporary      Assistace for
                                                                                      for Needy
                                                                                          Needy Families
                                                                                                Families Basic
                                                                                                         Basic Assistance
                                                                       1, 2006, Through   March 31, 2007 (A-06-07-00l04)
                                   Payments in Idaho for April 1, 2006, Through March 31, 2007 (A-06-07-00104)
                                   Payments in Idaho for April 





           Attached is
           Attached        is an
                              an advance
                                   advance copy   copy of  of our
                                                                our final
                                                                      final report
                                                                             reporton
                                                                                   onimproper
                                                                                      improperTemporary
                                                                                               Temporar Assistance
                                                                                                          Assistance for Needy
           Families
           Families (TANF)(TANF)        basic
                           basic assistance       assistance
                                            payments                                            1, 2006,
                                                                   payments in Idaho for April 1,
                                                      in Idaho for April
                          2006, through
                                                                                                          through March
                                                                                                                  March 31,2007.
                                                                                                                         31,2007.
           We will issue this report to the Idaho Department of Health and Welfare (the State agency)
           We will issue this report to the Idaho  Deparment of


           within 55 business
           within        business days.  days. The The Administration
                                                           Administration for Children and     Families (ACF)
                                                                                           and Families  (ACF) and
                                                                                                                and the
                                                                                                                    the Office
                                                                                                                        Office of
                                                                                                                               of
           Management and Budget requested this review.

           The TANF
                 TANF program,
                         program,which
                                   whichthe theFederal
                                                Federaland
                                                         andState
                                                              StateGovernments
                                                                     Governents jointly
                                                                                 jointly fund
                                                                                         fud and
                                                                                              andadminister,
                                                                                                  administer, is a
           block
           block grant program    that provides
                         program that  provides eligible
                                                   eligiblefamilies
                                                            families with
                                                                      withwork
                                                                            workopportunities andother
                                                                                 opportties and   otherassistance,

                                                                                                        assistance,
           including basic assistance payments for such ongoing basic needs as food, clothing, shelter, and
           utilities. Federal
                      Federal and
                              and State
                                   State laws,
                                          laws, regulations,
                                                 regulations, and
                                                              and other
                                                                   other requirements
                                                                         requirements establish
                                                                                       establish TANF
                                                                                                 TANF eligibility,
                                                                                                        eligibility,
           payment, and documentation requirements.

           Our objectives were to determine
                                  determine whether
                                              whether the
                                                      the State
                                                          State agency
                                                                agency (1)
                                                                        (1) made
                                                                            made TTANF
                                                                                    ANF basic assistance
           payments to recipient families in accordance
                                          in accordance  with Federal and  State requirements and
                                                                                              and adequately
           docmnented   eligibility and
           documented eligibility    andpayment
                                         paymentdeterminations
                                                determinations and
                                                               and (2) accurately
                                                                       accurately reported basic assistance
                                                                                                 assistace
           expenditures to ACF.

           F or the
           For   the period
                     period April
                            April 1, 2006, through March 31,
                                                          31, 2007, the
                                                                     the State
                                                                         State agency
                                                                                agency made
                                                                                       madesome
                                                                                             someTTANF
                                                                                                    ANF basic
           assistance payments that did not
                                          not meet
                                               meet Federal
                                                    Federal and State
                                                                State requirements and did
                                                                                         did not
                                                                                             not adequately
                                                                                                 adequately
           document all eligibility and payment determinations. The The State ag~ncy accurately reported
                                                                        State  ag~ncy  accurately reported basic
                                                                                                           basic
           assistance expenditures to ACF.
                                        ACF.

           We did not identify any errors in 123 of the 150
           We did not identify any errors in 123 of 
          payments in
                                                           150 payments  inour
                                                                            our statistical
                                                                                statistical sample. However,
                                                                                                      However,
           the remaining 27 payments were improper. For one of
           the remaining 27 payments were improper. For one of 
     these payments,
                                                                            payments, the recipient family
                                                                                        the recipient family was
                                                                                                              was
           ineligible
           ineligible for
                       forTTANF
                            ANF basic
                                 basic assistance.
                                       assistance. For
                                                     For 26
                                                         26 payments,      casefiles
                                                            payments, the case   fies did not
                                                                                          not contain
                                                                                              contain all
                                                                                                       all required
                                                                                                           required
           documentation supporting eligibility
                                        eligibility and
                                                    and payment
                                                        payment determinations.
                                                                 determinations.
Page 2 – Daniel C. Schneider


Based on our sample results, we estimated that the overall TANF improper payment rate was
16.45 percent of the Federal dollars expended and 18 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$1,071,288 (Federal share) for 3,936 overpayments.

We recommend that the State agency:

   •   use the results of this review to help ensure compliance with Federal and State TANF
       requirements by (1) reemphasizing to recipients the need to report changes in
       circumstances affecting eligibility or payment determinations and (2) verifying eligibility
       information and maintaining appropriate documentation in all case files and

   •   consider conducting quality control reviews of TANF basic assistance eligibility and
       payment processes.

In its comments on our draft report, the State agency agreed with our recommendations and
provided information on steps that it had already taken.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or Gordon L. Sato, Regional Inspector General for Audit Services,
Region VI, at (214) 767-8414 or through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to
report number A-06-07-00104.


Attachment
 ~ Stll.V'CI.r




 ~
(?c
.,~~
("                   DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                   HEALTIIAND
"~~                                                                                                            Offce of
                                                                                                               Office ofInspector
                                                                                                                        Inspector General

                                                                                                               Office of Audit Services
                                                                                                               1100 Commerce,
                                                                                                               1100  Commerce, Room
                                                                                                                                 Room 632
                                                                                                                                        632
                                                                                                               Dallas, Texas
                                                                                                               Dallas, Texas 75242
                                                                                                                              75242


                                                                 SEP
                                                                 SEP 2
                                                                     2 2
                                                                       2 2008
                                                                         208


                 Report Number:
                 Report Number: A-06-07-00104
                                A-06-07-00l04

                 Mr. Russ  Baron
                     Russ Barron
                 Administrator
                 Division of Welfare
                 Idaho Departme_nt of
                                   of Health
                                       Health and
                                               and Welfare
                                                   Welfare

                 450 West State Street, Second Floor
                 Boise, Idaho
                 Boise, Idaho 83702

                 Dear Mr.
                 Dear Mr. Barron:
                          Baron:

                 Enclosed
                 Enclosed is the is the
                                 V.S.     U.S.ofDepartment
                                      Department    
                                Human Services
                                                                      of Health and Human    Services (HHS),
                                                                                                       (HHS), Office
                                                                                                               Office ofInspector
                                                                                                                      ofInspector
                 General (OIG), final     final report entitled "Review of Improper Temporary Assistance for Needy
                 Families
                 Families Basic Basic
                                AssistanceAssistance
                                           Payments in IdahoPayments
                                                             for April 
                     1, 2006,
                                                                          in Idaho for April I, 2006, Through
                                                                                                      ThroughMarch
                                                                                                                March31,2007."
                                                                                                                        31,2007." We
                 wil forward
                 will   forward aa copy copy of  of this report to the HHS action official
                                                                                         offcial noted
                                                                                                  noted on the following page for
                 review and any action deemed necessary.

                                           wil make
                 The HHS action official will  make final
                                                       final determination
                                                              determination as
                                                                            as to
                                                                               to actions
                                                                                   actions taken
                                                                                           taken on
                                                                                                  on all
                                                                                                      all matters
                                                                                                          matters reported.
                                                                                                                    reported.
                     request that
                 We request  that you
                                  you respond
                                       respond to
                                                to this
                                                    this official
                                                         offcial within 30 days
                                                                           days from
                                                                                  from the
                                                                                        the date
                                                                                            date of
                                                                                                 of this
                                                                                                     this letter.
                                                                                                           letter. Your
                 response should present any comments or additional information that you believe may have a
                 bearing on the final determination.

                 Pursuant to
                 Pursuant  to the
                               the principles
                                   principlesofthe
                                               ofthe Freedom
                                                     Freedom ofInformation
                                                                 ofInformation Act,
                                                                                  Act, 55U.S.C.
                                                                                          V.S.C.§§552,
                                                                                                    552,asasamended
                                                                                                             amendedbyby
                 Public Law 104-231,     OIGreports    generally  are
                              104-231, OIGreports generally are made   made   available  to the public to the extent the
                 information isis not subject to
                                              to exemptions
                                                 exemptions in in the
                                                                   the Act
                                                                       Act (45
                                                                            (45 CFR
                                                                                CFR part
                                                                                     part 5).
                                                                                            5). Accordingly, this report
                 will be posted on the Internet atat http://oig.hhs.gov.

                 If
                 If you have any questions or comments about this report, please do not hesitate to call me, or contact
                 Sylvie Witten,
                        Witten, Audit Manager,
                                        Manager, at (512)
                                                    (512) 339-3071
                                                          339-3071 oror through
                                                                         throughe-mail
                                                                                 e-mailat
                                                                                       at Sylvie.Witten@oig.hhs.gov.
                                                                                          Sylvie.Witten~oig.hhs.gov.
                 Please refer to report number
                                        number A-06-07  -00104 in all correspondence.
                                               A-06-07-00104

                                                                       Sincerely,

                                                                     :~~~~J~
                                                                       Gordon L. Sato
                                                                       Regional Inspector General
                                                                        for Audit Services


                 Enclosure
Page 2 – Mr. Russ Barron


Direct Reply to HHS Action Official:

Mr. Steve Henigson
Regional Administrator
Administration for Children and Families
Seattle Regional Office
2201 Sixth Avenue
Seattle, Washington 98121
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF IMPROPER
  TEMPORARY ASSISTANCE FOR
    NEEDY FAMILIES BASIC
   ASSISTANCE PAYMENTS IN
   IDAHO FOR APRIL 1, 2006,
   THROUGH MARCH 31, 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-06-07-00104
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Temporary Assistance for Needy Families (TANF) program, a block grant program, provides
eligible families with work opportunities and other assistance, including basic assistance
payments for such ongoing basic needs as food, clothing, shelter, and utilities. The Federal and
State Governments jointly fund and administer the TANF program. The Administration for
Children and Families (ACF), Office of Family Assistance, administers the program at the
Federal level.

Federal and State laws, regulations, and other requirements establish TANF eligibility, payment,
and documentation requirements. To be eligible for TANF, a needy family must, among other
requirements, include a minor child or pregnant woman, not exceed established time limits for
receiving assistance, engage in work activities, not exceed income and resource thresholds
established by the State, meet citizenship and residency requirements, submit a written
application for benefits, and furnish the Social Security number of each family member. The
State must maintain records on the provision of assistance, including facts to support eligibility
and payment determinations.

In Idaho, the Department of Health and Welfare (the State agency) administers the TANF
program. The State agency determines the eligibility of applicants and the payment amounts for
basic assistance. For the period April 1, 2006, through March 31, 2007, the State agency made
21,866 monthly basic assistance payments totaling $6,513,184 to TANF recipients. The State
agency has opted to fund 100 percent of its TANF basic assistance expenditures from the Federal
TANF block grant.

ACF and the Office of Management and Budget (OMB) requested this review.

OBJECTIVES

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to recipient families in accordance with Federal and State requirements and adequately
documented eligibility and payment determinations and (2) accurately reported basic assistance
expenditures to ACF.

SUMMARY OF FINDINGS

For the period April 1, 2006, through March 31, 2007, the State agency made some TANF basic
assistance payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations. The State agency accurately reported basic
assistance expenditures to ACF.

We did not identify any errors in 123 of the 150 payments in our statistical sample. However, the
remaining 27 payments were improper:



                                                 i
   •    For one payment, the recipient family was ineligible for TANF basic assistance.

   •    For 26 payments, the case files did not contain all required documentation supporting
        eligibility and payment determinations.

The State agency did not conduct quality control reviews to detect these types of errors.

Based on our sample results, we estimated that the overall TANF improper payment rate was
16.45 percent of the Federal dollars expended and 18 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$1,071,288 for 3,936 overpayments. The following table summarizes our statistical estimates.

                          Statistical Estimates of Improper Payments

                                             Improper Payment Rate        Improper Payments

                                               Federal       No. of       Federal       No. of
                 Error Category                Dollars      Payments      Dollars      Payments
  Eligibility error                              0.69%        0.67%          $45,044         146

  Documentation errors                         15.76%        17.33%        1,026,244        3,790

       Overall                                 16.45%        18.00%       $1,071,288        3,936


RECOMMENDATIONS

We recommend that the State agency:

   •    use the results of this review to help ensure compliance with Federal and State TANF
        requirements by (1) reemphasizing to recipients the need to report changes in
        circumstances affecting eligibility or payment determinations and (2) verifying eligibility
        information and maintaining appropriate documentation in all case files and

   •    consider conducting quality control reviews of TANF basic assistance eligibility and
        payment processes.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations and
provided information on steps that it had already taken. The State agency also expressed its
concerns about developing a national TANF payment error rate and about posting our individual
State reports on the Internet before the eight-State review process is complete. The State
agency’s comments are included in their entirety as Appendix E.




                                                 ii
OFFICE OF INSPECTOR GENERAL RESPONSE

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the annual
amount of improper payments in their programs and to report that estimate to Congress. ACF
and OMB requested this review of the TANF program for fiscal year 2008 performance and
accountability reporting.

With respect to posting reports on the Internet, the Consolidated Appropriations Act of 2008
(Public Law 110-161), section 746, requires that each Office of Inspector General post on its
Web site any public report or audit issued within 1 day of its release.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Improper Payments Information Act of 2002..........................................................1
              Temporary Assistance for Needy Families Program ...............................................1
              Idaho’s Temporary Assistance for Needy Families Program ..................................2
              Federal and State Requirements Related to Temporary Assistance for Needy
                Families Basic Assistance....................................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
               Objectives ................................................................................................................3
               Scope .......................................................................................................................3
               Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................5

          IMPROPER PAYMENTS ...................................................................................................6
               Eligibility Error........................................................................................................6
               Documentation Errors..............................................................................................6

          CONCLUSION....................................................................................................................7

          RECOMMENDATIONS.....................................................................................................8

          STATE AGENCY COMMENTS........................................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................9

APPENDIXES

          A – FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          B – STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          C – SAMPLE DESIGN AND METHODOLOGY

          D – SAMPLE RESULTS AND ESTIMATES

          E – STATE AGENCY COMMENTS



                                                                     iv
                                                INTRODUCTION

BACKGROUND

The Administration for Children and Families (ACF) and the Office of Management and Budget
(OMB) requested this review of the Temporary Assistance for Needy Families (TANF) program
for fiscal year 2008 performance and accountability reporting.

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (Public Law 107-300) requires Federal agencies
to estimate and report to Congress on the annual amount of improper payments in their programs,
the causes of the improper payments, and the corrective actions taken. Section 2(d)(2) of this Act
(31 U.S.C. § 3321) states that an improper payment:

           . . . (A) means any payment that should not have been made or that was made in
           an incorrect amount (including overpayments and underpayments) under statutory,
           contractual, administrative, or other legally applicable requirements; and

           (B) includes any payment to an ineligible recipient, any payment for an ineligible
           service, any duplicate payment, payments for services not received, and any
           payment that does not account for credit for applicable discounts.

To clarify this definition, OMB Circular A-123, Appendix C, part I.A, states that “when an
agency’s review is unable to discern whether a payment was proper as a result of insufficient or
lack of documentation, this payment must also be considered an error.”

Temporary Assistance for Needy Families Program

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law
104-193) established the TANF program to help families progress from welfare to self-
sufficiency. The Federal and State Governments jointly fund and administer the program. At the
Federal level, the ACF Office of Family Assistance administers the program. Within broad
national guidelines established by Federal statutes, regulations, and other requirements, States
have significant flexibility in designing their programs and determining eligibility requirements.

The Federal Government provides TANF funds in the form of block grants, which are specified
amounts directly allocated to States. To be eligible for a TANF block grant, a State must submit
a State plan to ACF within the 27-month period prior to the Federal fiscal year in which the funds
are to be provided. The State plan is an outline of how each State will operate its TANF
program, including program administration, criteria for determining eligibility and delivering
benefits, and assurances against fraud and abuse. ACF reviews the State plan for completeness
but does not issue an approval. ACF has stated that a determination that a plan is complete does
not constitute its endorsement of State policies 1

1
    See 64 Federal Register 17720, 17847 (April 12, 1999).


                                                             1
Pursuant to section 401 of the Social Security Act (the Act), the TANF program provides
assistance and work opportunities to needy families. As a general rule, States must use the funds
for eligible families with a minor child or pregnant woman and for one of the four purposes of the
TANF program, including providing assistance to needy families. 2 Federal regulations
(45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and other forms of
benefits designed to meet a family’s ongoing basic needs, including, but not limited to, food,
clothing, shelter, and utilities. Such assistance is referred to as “basic assistance.”

States may use various funding options to provide benefits and services under their TANF
programs (e.g., commingled Federal and State funds or segregated funds). The funding option
chosen determines what specific requirements apply and whether a particular use of funds is
appropriate.

Idaho’s Temporary Assistance for Needy Families Program

In Idaho, the Department of Health and Welfare (the State agency) administers the TANF
program. The State agency uses the Eligibility Program Integrated Computer System (EPICS) to
document eligibility determinations, maintain case files, and process TANF basic assistance
benefits.

The State agency has opted to fund 100 percent of its TANF basic assistance expenditures from
the Federal TANF block grant.

The State agency requires individuals to submit written applications for TANF basic assistance
and to provide verification requested by the State agency. The State agency reviews the
applications, determines whether individuals meet TANF eligibility requirements, and notifies
the applicants via the applications that any changes affecting eligibility must be reported to the
State agency. For each applicant determined eligible, the State agency determines the amount of
assistance to be paid to the family.

Federal and State Requirements Related to Temporary
Assistance for Needy Families Basic Assistance

The State agency must comply with certain Federal requirements in determining and
redetermining eligibility and payment amounts. Federal regulations (45 CFR §§ 205.51–205.60
and parts 260–264) set forth basic TANF eligibility requirements that States must impose on
families receiving assistance, including time limits and work requirements for adults.
Appendix A of this report contains the specific Federal requirements related to TANF basic
assistance.




2
 The other purposes of TANF are to (1) end the dependence of needy parents by promoting job preparation, work,
and marriage; (2) prevent and reduce out-of-wedlock pregnancies; and (3) encourage the formation and maintenance
of two-parent families (section 401 of the Act).


                                                       2
In addition, the Idaho State plan; the Idaho Administrative Procedures Act (IDAPA) 16, Title 3,
Chapter 8; and the State agency’s “Temporary Assistance for Families in Idaho Handbook”
establish TANF basic assistance requirements. The State plan and IDAPA 16, Title 3, Chapter 8,
incorporate Federal requirements and establish all other eligibility requirements, such as income
and resource levels and standards of need for determining eligibility. 3 Appendix B of this report
contains the specific State requirements related to TANF basic assistance.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to recipient families in accordance with Federal and State requirements and adequately
documented eligibility and payment determinations and (2) accurately reported basic assistance
expenditures to ACF.

Scope

Our audit period covered April 1, 2006, through March 31, 2007. We did not review the overall
internal control structure of the Idaho TANF program. Rather, we reviewed the State agency’s
procedures relevant to the objectives of the audit.

We performed fieldwork from August to September 2007 at the State agency in Boise, Idaho.

Methodology

To accomplish our objectives, we:

    •   reviewed Federal and State laws, regulations, and other requirements related to TANF
        basic assistance eligibility and payment amounts;

    •   held discussions with ACF regional office officials and with State agency officials to
        obtain an understanding of policies, procedures, and guidance for determining TANF
        basic assistance eligibility and payment amounts;

    •   obtained a list of TANF basic assistance payments for the period April 1, 2006, through
        March 31, 2007, from the State agency’s EPICS;

    •   combined all payments to each recipient family in a month and obtained a universe of
        21,866 monthly payments totaling $6,513,184;

    •   validated the universe of payments, including reported expenditures; and

3
 In Idaho, a family meets the definition of “needy” if the countable household earned income is below 32 percent of
the 2000 Federal poverty level for the family size and if the monthly countable income is less than $309, the
maximum grant amount (Idaho State plan, section B.1).


                                                         3
   •   selected a simple random sample of 150 payments from the universe of 21,866 monthly
       payments, as detailed in Appendix C.

For each of the 150 sampled items, we determined whether the corresponding case file (electronic
or paper) contained sufficient information for the State agency to have made a TANF basic
assistance eligibility determination on the date of initial determination or redetermination. We
also attempted to obtain sufficient independent information to determine whether the recipient
family was eligible for TANF basic assistance and received the proper payment amount on the
payment date selected. Specifically, we determined whether:

   •   the case file contained a completed application from the parent or caretaker relative that
       was in effect for the selected payment date;

   •   the case file contained a Social Security number for each member of the recipient family
       and, if so, whether the State agency had verified the number through the Social Security
       Administration;

   •   the recipient family resided in Idaho by checking driver’s licenses, utility bills, and rent
       receipts/landlord statements found in the case files or by searching the EPICS Department
       of Transportation screens;

   •   each family member’s citizenship status was adequately documented in the case file (e.g.,
       birth certificates, EPICS vital statistics screens, and the U.S. Citizenship and Immigration
       Services’ Systematic Alien Verification for Entitlement program documentation);

   •   the case file established the relationship between the child and caretaker relative in cases
       in which only the child’s information was used in determining eligibility and payment
       amounts (child-only cases);

   •   the case file contained verification that school-age children included in the family
       attended school until age 18 or participated in work activities;

   •   the case file contained verification that children obtained required immunizations;

   •   the recipient family’s income was at or below the income threshold required to be eligible
       for TANF basic assistance on the payment date selected by reviewing information from
       the State Department of Employment and the case file;

   •   the recipient family’s resources were at or below the resource threshold required to be
       eligible for TANF basic assistance on the payment date selected by checking the State
       Department of Motor Vehicles records on automobile ownership and by reviewing the
       case file for evidence of checking or savings accounts, property, stocks, bonds, or
       recreational vehicles;




                                                 4
   •   no member of the recipient family was a fugitive felon or parole violator by reviewing the
       self-declaration in the case file;

   •   the recipient family complied with child support requirements by reviewing information
       in the case file and the State agency’s child support system;

   •   assistance was not provided to any adult member of the recipient family beyond allowable
       time limits by reviewing information from EPICS; and

   •   the parent or caretaker in the recipient family met work requirements by reviewing the
       case file and the EPICS Department of Employment screens.

We estimated, for the total universe of 21,866 monthly TANF basic assistance payments, the total
Federal dollar value of payments with eligibility or documentation errors. We also estimated, for
the total universe, the total number of these improper payments.

In addition, we determined the improper payment rate in dollars by dividing the estimated
improper Federal dollars by the total Federal dollars in the universe. We also determined the
improper payment rate for the number of payments in error by dividing the estimated number of
improper payments by the total number of payments in the universe.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency made some TANF basic assistance payments that did not meet Federal and
State requirements and did not adequately document all eligibility and payment determinations.
The State agency accurately reported basic assistance expenditures to ACF.

Of the 150 payments in our statistical sample, 27 payments totaling $7,349 were improper
because the recipient family was ineligible for TANF basic assistance or the case files did not
contain all required documentation supporting eligibility and payment determinations. We did
not identify any errors in the remaining 123 payments.

Based on our sample results, we estimated that the overall TANF improper payment rate was
16.45 percent of the Federal dollars expended and 18 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$1,071,288 for 3,936 overpayments. (See page 8 for additional statistical estimates.)




                                                5
IMPROPER PAYMENTS

Table 1 summarizes the errors noted in the 27 improper payments in our sample.

                           Table 1: Summary of Improper Payments
                                                                     Improper          No. of
                                                                      Federal         Improper
                          Type of Error
                                                                     Payments         Payments
   Eligibility Error
    Residency requirement was not met                                      $309              1

   Documentation Errors
    Documentation was not sufficient to support eligibility and
     payment determinations                                               7,040             26
           Total                                                         $7,349             27

We have provided details on each of these payment errors to the State agency.

Eligibility Error

IDAPA 16, Title 3, Chapter 8, section 134, requires that eligible individuals live in Idaho, have
no immediate intention of leaving, and not be a resident of another State. IDAPA 16, Title 3,
Chapter 8, section 308, requires that recipient families report changes in circumstances to the
State agency within 10 calendar days from the date that the change becomes known unless good
cause is established. Recipients must acknowledge this requirement through a signed written
application.

Of the 150 sampled payments, 1 payment totaling $309 was made to a recipient family that did
not meet State eligibility requirements. In this child-only case, the child did not reside in Idaho
on the date of the overpayment, and the recipient family did not report this change in
circumstances.

Documentation Errors

State agencies are required to maintain records regarding applications and eligibility
determinations for the provision of financial assistance. Included in such records should be facts
supporting initial and continuing eligibility determinations (45 CFR § 205.60(a)). OMB Circular
A-123, Appendix C, part I.A, states that when a Federal agency’s review is unable to discern
whether a payment was proper as a result of insufficient or lack of documentation, this payment
must be considered an error.

Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646) requires a TANF recipient to be a
citizen or national of the United States or a qualified alien. Under 8 U.S.C. § 1613, legal resident
aliens and other qualified aliens who entered the United States on or after August 22, 1996, are



                                                   6
ineligible for assistance for the first 5 years after entry. 4 Federal regulations (45 CFR
§ 263.2(b)(2)) state that for a recipient family consisting of a minor child, the minor child must
live with a custodial parent or another adult caretaker relative. Pursuant to section 408(a)(9) of
the Act, States are prohibited from using TANF funds to provide assistance to any individual who
is either a fugitive felon or a parole or probation violator.

State regulations require that:

    •    an adult participant, a legal guardian, or a representative sign the application form and
         that the State agency receive the form (IDAPA 16, Title 3, Chapter 8, section 108);

    •    an individual provide verification requested by the State agency (IDAPA 16, Title 3,
         Chapter 8, section 100);

    •    eligible children obtain immunizations according to the State agency’s schedule for
         immunizations unless there is a religious or other objection or the immunizations would
         endanger the life or health of the children (IDAPA 16, Title 3, Chapter 8, section 141);
         and

    •    school-age children included in the family attend school until they reach age 18 or
         graduate from a secondary school or the equivalent and that a $50 monthly penalty be
         subtracted from the grant for each dependent child who does not attend school (IDAPA
         16, Title 3, Chapter 8, section 142).

In addition, the Idaho State plan, section A.4, requires applicants to provide documentation that
they are citizens or lawful permanent residents of the United States.

The case files for 26 sampled payments totaling $7,040 did not contain adequate documentation
to support eligibility and payment determinations. For these overpayments, the missing
documentation included at least one of the following: a signed application covering the payment
month, verification of immunizations or school attendance, proof of U.S. citizenship, facts
supporting the caretaker relative’s relationship to the minor child, and proof of a fleeing felon and
probation or parole violation check.

CONCLUSION

Some of the sampled payments did not meet Federal and State eligibility or documentation
requirements. For these payments, (1) the recipient family did not notify the State agency of
changes in circumstances affecting eligibility or (2) the State agency did not maintain appropriate
documentation to support eligibility and payment determinations. The State agency did not
conduct quality control reviews to detect the types of errors that we found.



4
 None of the exceptions to the 5-year bar (refugees, asylees, aliens whose deportation is being withheld, etc.) applied
to our sampled payments.


                                                           7
Based on our sample results, we estimated that the TANF improper payment rate was
16.45 percent of the Federal dollars expended and 18 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$1,071,288 for 3,936 overpayments. Table 2 summarizes our statistical estimates. (See
Appendix D for details on our sample results and estimates.)

                             Table 2: Statistical Estimates of Improper Payments

                                                         Improper Payment Rate   Improper Payments

                                                          Federal     No. of     Federal       No. of
                      Error Category                      Dollars    Payments    Dollars      Payments
      Eligibility error                                    0.69%       0.67%       $45,044         146

      Documentation errors                                15.76%      17.33%      1,026,244       3,790

           Overall                                        16.45%      18.00%     $1,071,288       3,936


We are not recommending recovery of the overpayments identified in this report primarily
because ACF decided to assess penalties 5 in the TANF program rather than take disallowances in
response to audit findings.

RECOMMENDATIONS

We recommend that the State agency:

       •    use the results of this review to help ensure compliance with Federal and State TANF
            requirements by (1) reemphasizing to recipients the need to report changes in
            circumstances affecting eligibility or payment determinations and (2) verifying eligibility
            information and maintaining appropriate documentation in all case files and

       •    consider conducting quality control reviews of TANF basic assistance eligibility and
            payment processes.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations and
provided information on steps that it had already taken. The State agency also expressed its
concerns about the audit methodology and the development of a national TANF payment error
rate because of the wide variations in programs across the Nation. The State agency requested
that we refrain from posting our individual State reports on the Internet until the entire eight-State
TANF review process is complete and all reports are final.

The State agency’s comments are included in their entirety as Appendix E.

5
    Penalties are set forth in section 409 of the Act.


                                                            8
OFFICE OF INSPECTOR GENERAL RESPONSE

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the annual
amount of improper payments in their programs and to report that estimate to Congress. As
stated on page 1 of this report, ACF and OMB requested this review of the TANF program for
fiscal year 2008 performance and accountability reporting.

With respect to posting reports on the Internet, the Consolidated Appropriations Act of 2008
(Public Law 110-161), section 746, requires that each Office of Inspector General post on its
Web site any public report or audit issued within 1 day of its release.




                                                9
APPENDIXES
                                                                                 APPENDIX A
                                                                                   Page 1 of 3

    FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   Section 401 of the Social Security Act (the Act) states that one purpose of the Temporary
    Assistance for Needy Families (TANF) program is to provide assistance to needy
    families.

•   The Federal Register, Vol. 64, No. 69, page 17825 (April 12, 1999) defines a needy
    family as one that is financially deprived, i.e., lacking adequate income and resources.

•   Regulations (45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and
    other forms of benefits designed to meet a family’s ongoing basic needs (i.e., food,
    clothing, shelter, utilities, household goods, personal care items, and general incidental
    expenses), as well as supportive services, such as transportation and childcare provided to
    families whose household heads are not employed.

•   Regulations (45 CFR § 263.2(b)) state that cash assistance benefits may be provided only
    to or on behalf of eligible families.

•   Section 408(a)(1) of the Act requires that a State not use any part of the grant to provide
    assistance to a family unless the family includes a minor child who resides with the family
    or includes a pregnant woman.

•   Section 408(a)(4) of the Act requires that a State not use any part of the grant to provide
    assistance to an individual who has not attained 18 years of age, is not married, has a
    minor child at least 12 weeks of age in his or her care, and has not successfully completed
    a high school education or its equivalent.

•   Section 408(a)(7) of the Act and 45 CFR § 264.1(a)(1) provide that a State may not use
    Federal TANF funds to provide assistance to a family that includes an adult who has
    received Federal assistance for more than 60 cumulative months.

•   Regulations (45 CFR § 261.10(a)(1)) require that a parent or caretaker receiving
    assistance engage in work activities when the State has determined that the individual is
    ready to do so or when the individual has received assistance for a total of 24 months,
    whichever is earlier.

•   Regulations (45 CFR §§ 205.52(a)(1) and (2)) require, as a condition of eligibility, that
    each applicant for or recipient of aid furnish his or her Social Security number to the State
    or local agency. If the individual cannot recall or was not issued a Social Security
    number, the individual is required to apply to the Social Security Administration (SSA)
    for a number through procedures adopted by the State or local agency. If such procedures
    are not in effect, the individual must apply directly for such a number, submit verification
    of such application, and provide the number upon its receipt.
                                                                                                  APPENDIX A
                                                                                                    Page 2 of 3

    •   Regulations (45 CFR § 205.52(g)) require the State agency to submit all unverified Social
        Security numbers to SSA for verification. 1

    •   Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
        (Public Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646) requires a TANF
        recipient to be a citizen or national of the United States or a qualified alien. Legal
        resident aliens and other qualified aliens who entered the United States on or after
        August 22, 1996, are ineligible for assistance for the first 5 years after entry.

    •   Regulations (45 CFR § 263.2(b)(2)) state that an eligible family must include a child
        living with a custodial parent or another adult caretaker relative (or include a pregnant
        individual).

    •   Regulations (45 CFR § 263.2(b)(3)) state that TANF basic assistance income and resource
        thresholds are established by the State and must be included in the State plan. The
        income and resource thresholds, which are subject to adjustments, vary based on the
        number of members in the household.

    •   Regulations (45 CFR §§ 205.51 and 205.55) establish requirements for income and
        eligibility verification. These regulations governing the Income and Eligibility
        Verification System require States to request information from other Federal and State
        agencies to verify individuals’ eligibility for assistance under the State plan and the
        correct amount of assistance payments for applicants and recipients.

    •   Regulations (45 CFR § 264.30(a)) require the State agency to refer to the child support
        enforcement agency all appropriate individuals in the family of a child for whom paternity
        has not been established or for whom a child support order needs to be established,
        modified, or enforced. Referred individuals must cooperate in establishing paternity and
        in establishing, modifying, or enforcing a support order with respect to the child.


    •   Section 408(a)(2) of the Act provides that if an individual does not cooperate with the
        State in establishing paternity or in establishing, modifying, or enforcing a support order,
        the State must reduce assistance by at least 25 percent or may deny the family any
        assistance.

    •   Section 408(a) of the Act prohibits assistance for individuals who (1) fail to assign
        support rights to the State, (2) fail to attend high school or an equivalent training program
        when the individual is a teenage parent, (3) fail to reside in an adult-supervised setting
        when the household head is a teenager, (4) are fugitive felons or parole violators, or



1
 The State agency may accept as verified a Social Security number provided directly to the State agency by SSA or
by another Federal or federally assisted benefit program that has received the number from SSA or has submitted it to
SSA for verification.
                                                                                APPENDIX A
                                                                                  Page 3 of 3

    (5) are minor children absent from the home or parents who fail to notify the State agency
    of the absence.

•   The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
    Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646), section 115(a)(1), prohibits
    assistance for individuals who have been convicted of a drug-related felony.

•   Regulations (45 CFR § 205.60(a)) require State agencies to maintain records regarding
    applications and eligibility determinations for the provision of assistance. Included in
    such records should be facts supporting initial and continuing eligibility determinations.

•   Regulations (45 CFR part 265) establish that States must report TANF financial data on a
    quarterly basis to ACF. Pursuant to 45 CFR §§ 265.7(a) and 265.4(a), each State’s
    quarterly reports must be complete, accurate, and filed within 45 days of the end of the
    quarter. A complete and accurate report means that (1) the reported data accurately
    reflect information available to the State in case records, financial records, and automated
    data systems; (2) the data are free from computational errors and are internally consistent;
    and (3) the reported data include all applicable elements (45 CFR § 265.7(d)).
                                                                                   APPENDIX B
                                                                                     Page 1 of 5

     STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   The Idaho Administrative Procedures Act (IDAPA) 16, Title 3, Chapter 8, section 100,
    states that to be eligible for Temporary Assistance for Families in Idaho (TAFI), an
    individual must sign an application, provide verification requested by the Idaho
    Department of Health and Welfare (the State agency), negotiate and sign a Personal
    Responsibility Contract (PRC), cooperate in establishing and obtaining support, complete
    certain work activities, and meet all other personal responsibility and financial criteria.

•   The State plan, section B.1, requires that TAFI be available to eligible children who
    reside with a caretaker relative. A caretaker relative is a specified adult relative other than
    a parent who resides with an eligible related child and who is responsible for the child’s
    care. Caretaker relatives may choose whether to be included in the grant. For child-only
    cases:

       o Only the child’s income is counted.

       o TAFI time limits do not apply to caretaker relatives.

       o Caretaker relatives not included in the grant are encouraged to complete all of the
         Child Support Services referral forms but are not required to cooperate with Child
         Support Services. However, a caretaker relative who is included in the grant must
         cooperate with Child Support Services to identify and locate the noncustodial
         parent; establish paternity; and establish, modify, and enforce the child support
         order unless good cause exists.

       o Caretaker relatives not included in the grant are not required to participate in work
         activities. However, all caretaker relatives included in the grant must meet work
         participation requirements.

•   IDAPA 16, Title 3, Chapter 8, section 101, states that lifetime eligibility for adults is
    limited to 24 months unless otherwise provided by these rules. If, during the 24-month
    time limit, the State agency does not end benefits at the appropriate time and a payment is
    made in error, the month is applied to the 60-month Federal time limit rather than the 24-
    month State limit.

•   IDAPA 16, Title 3, Chapter 8, section 108, states that the application form must be signed
    by an adult participant, a legal guardian, or a representative and must be received by the
    State agency.

•   IDAPA 16, Title 3, Chapter 8, section 109, requires substance abuse screening for cash
    assistance applicants prior to TAFI benefit approval.
                                                                                   APPENDIX B
                                                                                     Page 2 of 5

•   IDAPA 16, Title 3, Chapter 8, section 116, requires that a PRC be negotiated and signed
    by the family’s adults and that all application activities be completed before eligibility is
    approved. The family must continue to comply with ongoing PRC requirements to
    remain eligible.

•   IDAPA 16, Title 3, Chapter 8, section 124, states that if substance abuse screening,
    assessment, or testing shows that the participant needs substance abuse treatment, the
    State agency must require the participant to enter a substance abuse treatment program
    and cooperate with treatment. Treatment must be provided at no cost to TAFI
    participants.

•   Pursuant to IDAPA 16, Title 3, Chapter 8, section 125, the following individuals must be
    included in the family:

       o Children under the age of 18, or under the age of 19 if they are attending a
         secondary school or the equivalent level of vocational or technical training full
         time, must be included. Children must reside with a parent or a caretaker relative
         who exercises care and control over them. A dependent child’s natural or
         adoptive brother or sister, including half siblings, living in the same home as the
         dependent child must be included in the family.

       o Parents who have an eligible natural or adopted child residing with them must be
         included.

       o A pregnant woman with no other children who is in at least the third calendar
         month before the baby is due and who is unable to work for medical reasons must
         be included.

•   IDAPA 16, Title 3, Chapter 8, section 126, states that the following individuals may be
    eligible:

       o Specified adult relatives other than parents who have an eligible related child
         residing with them and who are responsible for the child’s care may be eligible.
         Only one child in the family must be related to one of the following specified
         relatives: brother, sister, aunt, uncle, nephew, niece, first cousin, or first cousin
         once removed. One of these relatives with a “grand” or “great” prefix attached
         may be eligible, as well as one with a half blood relationship. A stepparent, a
         stepsibling, or the spouse of a relative by marriage, even if the marriage has ended,
         may also be eligible.

       o Related dependent children who are not siblings or half siblings of family
         members and who are living in the home may be eligible.
                                                                                  APPENDIX B
                                                                                    Page 3 of 5

•   IDAPA 16, Title 3, Chapter 8, section 127, states that a married child under age 18 is no
    longer considered a dependent child. The child’s subsequent separation, divorce, or
    annulment does not change that status.

•   IDAPA 16, Title 3, Chapter 8, section 128, states that an unmarried parent under age 18
    must live with his or her parents unless good cause is established. Two unmarried parents
    under the age of 18 with a child in common may choose to live with the parents of the
    unmarried father or the unmarried mother.

•   IDAPA 16, Title 3, Chapter 8, section 131, states that to be eligible, an individual must be
    a U.S. citizen or national, a national of American Samoa or Swains Island, or a qualified
    noncitizen under the State’s rules.

•   Pursuant to IDAPA 16, Title 3, Chapter 8, section 133, applicants must provide their
    Social Security number, or proof that they have applied for a Social Security number, to
    the State agency before approval of eligibility. If an applicant has more than one Social
    Security number, all numbers must be provided. The Social Security number must be
    verified by SSA electronically. When a Social Security number is unverified, the
    applicant is not eligible for TAFI benefits and makes the family ineligible for TAFI. The
    State agency must notify the applicant in writing if eligibility is being denied or lost for
    failure to meet the Social Security number requirement.

•   IDAPA 16, Title 3, Chapter 8, section 134, states that individuals must live in Idaho, have
    no immediate intention of leaving, and not be a resident of another State.

•   IDAPA 16, Title 3, Chapter 8, section 141, states that eligible children must obtain
    immunizations according to the State agency’s schedule for immunizations unless there is
    a religious or other objection or immunization would endanger the life or health of the
    children.

•   Pursuant to IDAPA 16, Title 3, Chapter 8, section 142, school-age children included in
    the family must attend school until they reach age 18 or graduate from a secondary school
    or the equivalent level of vocational or technical training, Job Corps, alternative school, or
    home school. A $50 monthly penalty for each child will be subtracted from the grant if a
    dependent child does not attend school. This penalty does not apply if the child is
    participating in work activities outlined in the PRC.

•   IDAPA 16, Title 3, Chapter 8, section 147, states that for the family to be eligible for
    TAFI, the parent or caretaker relative included in the grant is required by law to assign to
    the State his or her rights to child support payments. The State will retain all child
    support collections up to the amount of assistance that the family receives. This
    assignment applies only to the period when the family receives TAFI assistance.
                                                                                  APPENDIX B
                                                                                    Page 4 of 5

•   IDAPA 16, Title 3, Chapter 8, section 148, states that for a family to be eligible, a parent
    or caretaker relative included in the grant must cooperate with the State agency to identify
    and locate the noncustodial parent; establish paternity; and establish, modify, and enforce
    the child support order unless good cause exists. The parent or caretaker relative included
    in the grant must at least provide, unless good cause exists, the name of the noncustodial
    parent and two of the following pieces of information: birth date; Social Security
    number; current address, phone number, or employer; make, model, and license number
    of any motor vehicle owned by the absent parent; and names, phone numbers, and
    addresses of the parents of the noncustodial parent.

•   IDAPA 16, Title 3, Chapter 8, section 163, requires that all adults in the family participate
    in work activities for up to 40 hours per week. A child between the ages of 16 and 18
    who is not attending school must participate in assigned work activities for up to 40 hours
    per week. A single custodial parent of a child who is less than 6 years old is not required
    to participate in work activities in any of the following circumstances:

       o Appropriate childcare is not available within a reasonable distance from the
         participant’s home or worksite.

       o Informal childcare by relatives or others is not available or is unsuitable.

       o Appropriate and affordable childcare is not available.

•   IDAPA 16, Title 3, Chapter 8, section 200, states that the total of the entire family’s
    countable resources must not be greater than $2,000 in any month. Resources are money,
    financial instruments, vehicles, and real property.

•   IDAPA 16, Title 3, Chapter 8, section 221, states that to determine initial and continuing
    eligibility, the countable monthly income that is or will be available to the family is used
    in the calculation of the grant.

•   IDAPA 16, Title 3, Chapter 8, section 239, states that when a caretaker relative applies
    only for a relative child, only the child’s income and resources are counted.

•   Pursuant to IDAPA 16, Title 3, Chapter 8, section 240, the individuals listed below are
    excluded from the family size in determining eligibility and the grant amount. The
    income and resources of these ineligible family members are counted.

       o Ineligible noncitizens are excluded.

       o Individuals convicted under Federal or State law of any offense classified as a
         felony and involving the possession, use, or distribution of a controlled substance,
         when they do not comply with the terms of a withheld judgment, probation, or
         parole, are excluded from the family for the purpose of determining eligibility and
         the grant amount. The felony must have occurred after August 22, 1996.
                                                                                APPENDIX B
                                                                                  Page 5 of 5

       o Felons who are fleeing to avoid prosecution, custody, or confinement after
         conviction of a felony or an attempt to commit a felony are excluded.

       o Felons who are violating a condition of probation or parole imposed for a Federal
         or State felony are excluded.

       o Individuals fraudulently misrepresenting residency are excluded.

•   IDAPA 16, Title 3, Chapter 8, section 248, states that the maximum grant is $309.

•   IDAPA 16, Title 3, Chapter 8, section 250, states that the grant amount for eligible
    families with only unearned income is the maximum grant minus the unearned income
    and penalties if applicable.

•   IDAPA 16, Title 3, Chapter 8, section 252, states that for eligible families with earned
    income, the grant amount is calculated by subtracting 60 percent of gross earned income,
    100 percent of any unearned income, and applicable penalties from the figure in the
    “Work Incentive Table” based on the family size. The grant amount is the result of this
    calculation rounded to the next lowest dollar or the maximum grant, whichever is less.

•   IDAPA 16, Title 3, Chapter 8, section 308, requires recipient families to report changes in
    circumstances to the State agency within 10 calendar days from the date the change
    becomes known.
                                                                                APPENDIX C
                                                                                  Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

SAMPLE OBJECTIVE

Our objective was to determine whether the State agency made TANF basic assistance payments
to recipient families in accordance with Federal and State requirements and adequately
documented eligibility and payment determinations.

AUDIT UNIVERSE

The universe consisted of all TANF basic assistance payments made for the 12-month audit
period that ended March 31, 2007.

SAMPLING FRAME

The sampling frame was a computer file containing 21,866 monthly basic assistance payments to
TANF recipients in Idaho for the 12-month period that ended March 31, 2007. The total TANF
reimbursement for the 21,866 payments was $6,513,184 in Federal funds.

SAMPLE UNIT

The sample unit was a monthly TANF basic assistance payment to a recipient family for the audit
period. The payment included all basic assistance payments made to the family for the month.


SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 150 monthly TANF basic assistance payments.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit Services,
statistical sampling software, RAT-STATS 2007, version 1. We used the random number
generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the payments in our sampling frame and selected the sequential
numbers that correlated to the random numbers. We then created a list of 150 sampled items.
                                                                                    APPENDIX C
                                                                                      Page 2 of 2

CHARACTERISTICS TO BE MEASURED

We based our determination of whether each sampled payment was improper on Federal and
State laws, regulations, and other requirements. Specifically, if at least one of the following
characteristics was met, we considered the payment under review improper:

   •   The recipient family did not meet one or more eligibility requirements.

   •   The recipient family was eligible for assistance but received an improper payment amount
       (overpayment or underpayment).

   •   The case file did not contain sufficient documentation to support eligibility and payment
       determinations as required by Federal and State regulations.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We estimated the total Federal dollar value of
TANF basic assistance payments with eligibility errors and with documentation errors. We also
estimated the total number of these improper payments.

In addition, we determined the improper payment rate for the dollars expended by dividing the
estimated improper Federal dollars by the total Federal dollars in the universe. We also
determined the improper payment rate for the number of payments in error by dividing the
estimated number of improper payments by the total number of payments in the universe.
                                                                                   APPENDIX D
                                                                                     Page 1 of 3

                           SAMPLE RESULTS AND ESTIMATES

OVERALL SAMPLE RESULTS AND ESTIMATES

                               Sample Details and Overall Results
                    No. of          Value of                          Value of         No. of
  Value of        Payments          Sampled           Sample         Improper         Improper
  Universe       in Universe        Payments           Size          Payments         Payments


 $6,513,184        21,866            $44,812           150               $7,349          27




                                     Overall Estimates
                   Limits Calculated for a 90-Percent Confidence Interval
                                         Estimated             Estimated
                                          Value of               No. of
                                         Improper              Improper
                                         Payments              Payments
                   Point estimate        $1,071,288              3,936
                   Lower limit              744,679              2,851
                   Upper limit            1,397,897              5,234


                      Calculation of Overall Improper Payment Rate

Dollar value of payments       Estimated improper Federal dollars    $1,071,288 = 16.45%
                                Total Federal dollars in universe    $6,513,184

Number of payments           Estimated No. of improper payments           3,936     = 18.00%
                              Total No. of payments in universe           21,866
                                                                                     APPENDIX D
                                                                                       Page 2 of 3

SAMPLE RESULTS AND ESTIMATES FOR
ELIGIBILITY ERRORS

                               Sample Results—Eligibility Error

                                                       No. of
                                   Value of           Improper
                              Improper Payments       Payments

                                      $309                1




                               Estimates—Eligibility Errors
                   Limits Calculated for a 90-Percent Confidence Interval
                                         Estimated              Estimated
                                          Value of                No. of
                                         Improper               Improper
                                         Payments               Payments
                Point estimate            $45,044                   146
                Lower limit               (29,254)                   8
                Upper limit               119,342                   681


                Calculation of Improper Payment Rate—Eligibility Errors

Dollar value of payments       Estimated improper Federal dollars           $45,044     =   0.69%
                                Total Federal dollars in universe         $6,513,184

Number of payments            Estimated No. of improper payments             146       =    0.67%
                               Total No. of payments in universe            21,866
                                                                                APPENDIX D
                                                                                  Page 3 of 3

SAMPLE RESULTS AND ESTIMATES FOR
DOCUMENTATION ERRORS

                           Sample Results—Documentation Errors
                                                        No. of
                                  Value of            Improper
                             Improper Payments        Payments

                                    $7,040                26



                            Estimates—Documentation Errors
                   Limits Calculated for a 90-Percent Confidence Interval
                                       Estimated           Estimated
                                        Value of             No. of
                                       Improper            Improper
                                       Payments            Payments
                   Point estimate      $1,026,244            3,790
                   Lower limit            705,555              2,724
                   Upper limit          1,346,933              5,074


             Calculation of Improper Payment Rate—Documentation Errors

Dollar value of payments     Estimated improper Federal dollars    $1,026,244    = 15.76%
                              Total Federal dollars in universe    $6,513,184

Number of payments          Estimated No. of improper payments          3,790    = 17.33%
                             Total No. of payments in universe         21,866
APPENDIX E
  Page 1 of 3
APPENDIX E
  Page 2 of 3
APPENDIX E
  Page 3 of 3
